("....~l­
","
                      DEPARTMENT OF
                      DEPARTMENT OF HEALTH
                                    HEALTH &.
                                           &. HUMAN SERVICES                                            Office of
                                                                                                        Office of Inspector
                                                                                                                  Inspector General
                                                                                                                            General


  ~'~J"'Y'ClS.""                                                                                        Washington, D.C. 20201

                                                                                                        Washington, D.C. 20201




                                                             dUN
                                                             dUN-- 88 3X)9
                                                                       3X
               TO:             Charlene Frizzera
                               Acting Administrator
                               Cen rs
                               Cen  rs for
                                        forMedicare
                                           Medicare && Medicaid
                                                       MedicaidServices
                                                                Services


               FROM:             osePhfv~
                               Deputy Inspector General for Audit Services


               SUBJECT:        Family Planning Services Claimed Twice in Michigan for October 1,
                                                                                              1, 2005,
                               Through September 30, 2007 (A-05-08-00064)


               Attached is an advance
                              advance copy
                                       copy of
                                            of our
                                               our final
                                                   final report
                                                          reporton
                                                                on family
                                                                    familyplanning
                                                                           planing services
                                                                                    services claimed
                                                                                              claimed twice in
                                     1, 2005,
               Michigan for October 1,  2005, through
                                              through September
                                                        September30,2007.
                                                                    30,2007. We
                                                                              We will
                                                                                 will issue
                                                                                       issue this report to the
                         Departent ofofCommunity
               Michigan Department      CommunityHealth
                                                     Health(State
                                                             (Stateagency)
                                                                    agency)within
                                                                            within 55 business
                                                                                      business days.
                                                                                                days.

               States report
               States     report the
                                  the cost
                                      costof
                                           ofservices
                                              servicesfurnished
                                                       fuished totoMedicaid
                                                                   Medicaid beneficiares
                                                                              beneficiarieson
                                                                                            onthe
                                                                                               the"Quarterly
                                                                                                   "Quarterly Medicaid
                                                                                                               Medicaid
               Statement
               Statement of 
 of Expenditures for the Medical Assistance Program," Form CMS-64 (CMS-64).
               Federal reimbursement is available only for expenditures that constitute payment for part or all
               of the cost of
               of             of services furnished as medical assistance
                                                                  assistance under
                                                                             under the
                                                                                   the approved
                                                                                       approved State
                                                                                                  State plan.
                                                                                                        plan. Amounts
               reported on the CMS-64 must be actual expenditures for which States are entitled to Federal
               reimbursement.

               In Michigan, the State agency administers the Medicaid program and is responsible for providing
               family planning
               family  planing services
                                servicesand
                                         andreporting
                                             reporting expenditures
                                                       expenditures for reimbursement on thethe CMS-64.
                                                                                                CMS-64. The
               State agency claimed expenditures
                                      expenditures for
                                                   for nonwaiver
                                                       nonwaiver family
                                                                  family planning
                                                                          planing services
                                                                                   services totaling $8,106,721
                                                                                           totaling  $8,106,721
               ($7,296,049 Federal share) in Federal fiscal year (FY) 2006 and $9,569,892 ($8,612,903 Federal
               share) in FY 2007.

               Our objective was to determine whether the State agency claimed costs more than once for
               Federal
               Federal reimbursement  for family
                       reimbursement for  family planning services during
                                                 planing services  during FYs
                                                                          FY s 2006
                                                                               2006 and
                                                                                    and 2007.
                                                                                        2007.



               For FYs 2006 and 2007, the State agency claimed and received reimbursement totaling
               $1,111,688 ($1,000,519
               $1,111,688   ($1,000,519 Federal
                                           Federal share)
                                                    share) for
                                                            for family
                                                                 familyplanning    services itit claimed
                                                                         planing services        claimed more
                                                                                                          more than
                                                                                                                than once.
               This duplicate payment amount is unallowable
                                                      unallowable forfor Federal
                                                                         Federal financial
                                                                                   financial participation.
                                                                                               participation. The State
               agency did not claim the remaining $16,564,925 in family planning service costs more than
               once. Our
               once.  Our review
                           review of
                                  ofall
                                     all these
                                          these claims
                                                claims showed
                                                         showed that some
                                                                        some services
                                                                               services were claimed twice on behalf of
               the
               the same beneficiaries on
                   same beneficiaries  on the
                                            the same   dates of
                                                same dates   of service.
                                                                  service. The   State agency
                                                                            The State             reported the
                                                                                       agency reported     the claims
                                                                                                               claims data
                                                                                                                      data

               twice on the CMS-64 because the computer system it used to report family planning services
Page 2 – Charlene Frizzera


inappropriately compiled the same claims data from a report that identified family planning
services for all places of service and another report that identified services at only family
planning clinics. Consequently, the State agency reported and claimed the services from family
planning clinics twice.

We recommend that the State agency refund $1,000,519 to the Federal Government for the
unallowable duplicate Medicaid costs claimed from October 1, 2005, through September 30,
2007, and review family planning services claimed during the period January 1, 2001, through
September 30, 2005, and after September 30, 2007, and refund to the Federal Government any
Federal reimbursement for additional costs claimed more than once.

In written comments on our draft report, the State agency concurred with our recommendations.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through e-mail at George.Reeb@oig.hhs.gov
or Marc Gustafson, Regional Inspector General for Audit Services, Region V, at (312) 353-2618
or through e-mail at Marc.Gustafson@oig.hhs.gov. Please refer to report number
A-05-08-00064.


Attachment
.",~+'~""'Cf..À"."'"


                                            DEPARTMENT OF
                                            DEPARTMENT OF HEALTH
                                                          HEALTH AND
                                                                 AND HUMAN
                                                                     HUMAN SERVICES
                                                                           SERVICES

;~~""~
g    L.

   Jit
                                               OFFICE
                                                       OFFICEOF
                                                     233
                                                     233NORTH
                                                              OF AUDIT
                                                                 AUDITSERVICES
                                                         NORTH MICHIGAN
                                                        CHICAGO,
                                                                        SERVICES
                                                                MICHIGANAVENUE
                                                        CHICAGO, ILLINOIS
                                                                            AVENUE
                                                                  ILLINOIS 60601
                                                                           60601
                                                                                                                        REGION V
                                                                                                                        REGION
                                                                                                                        OFFICE
                                                                                                                 . INSPECTOR
                                                                                                                               V
                                                                                                                                OF
                                                                                                                         OFFlCEOF
                                                                                                                    INSPECTOR GENERAL
                                                                                                                               GENERAL




                                                        dUN 12
                                                        dUN 12 M09
                                                               20

      Report Number: A-05-08-00064
             Number: A-05-08-00064

          Janet Olszewski
      Ms. Janet Olszewski
      Director
      Michigan Department ofof Community Health
      Capitol View
              View Building
                    Building
                     Street
      201 Townsend Street
                          48913
      Lansing, Michigan 48913

      Dear Ms. Olszewski:

      Enclosed is the U.S. Department of Health and Human Services
      Enclosed is the U.S. Deparment of 
                                                 Services (HHS),
                                                                                                    (HHS), Office
                                                                                                            Office ofInspector
                                                                                                                    ofInspector
      General (OIG),(OIG), finalfinal report
                                        report entitled
                                                  entitled "Family
                                                                "Family Planning         Services Claimed
                                                                             Planing Services     Claimed Twice
                                                                                                            Twice in
                                                                                                                   in Michigan
                                                                                                                      Michigan for
      October
      October 1,2005,1,2005,      Through
                      Through September 30,2007."September        30,2007."
                                                 We wil forward a copy of 
        We will forward a copy of this report to the
      HHS action official             noted on
                          offcial noted         on the
                                                     the following
                                                           following page   page for
                                                                                  for review
                                                                                       review and
                                                                                              and any
                                                                                                   any action
                                                                                                       action deemed
                                                                                                              deemed necessary.
                                                                                                                        necessary.

      The HHS action official
                       official will make final
                                wil make   final determination  as to
                                                 determination as  to actions
                                                                      actions taken
                                                                               taken on
                                                                                     on all
                                                                                        all matters
                                                                                            matters reported.
                                                                                                     reported.
      We request
          request that
                  that you
                       you respond
                            respondtotothis
                                        thisofficial
                                             offcial within
                                                     within 30
                                                            30 days
                                                               daysfrom
                                                                      :fomthe   dateof
                                                                           thedate     this letter.
                                                                                     ofthis         Your
                                                                                            letter. Your
      response should present any comments or additional information that you believe may have a
      bearing on the final determination.

      Pursuantto
      Pursuant      to the Freedom ofInformation
                                    ofInformation Act,      U.S.C. §§ 552,
                                                    Act, 55 U.S.C.     552, OIG
                                                                            OIG reports generally are made
      available to the public to the extent that information in the report is not subject to exemptions in
      the Act.      Accordingly, this report wil
               Act. Accordingly,             willbe
                                                  beposted
                                                     postedonon the
                                                                 the Internet  at http://oig.hhs.gov.
                                                                      Internet at http://oig.hhs.gov.

     If you have any questions or comments about this report, please        plèase do not hesitate to call me, or
     contact
     contact Mike Mike     Barton,
                  Baron, Audit                                    469-2543 or through e-mail at
                                        Audit Manager, at (614) 469-2543
                               Manager, 


     Mike.Barton@oig.hhs.gov.
     Mike.Baron(foig.hhs.gov. Please          Pleaserefer
                                                     refertotoreport
                                                               reportnumber
                                                                      numberA-05-08-00064
                                                                             A-05-08-00064 inin all
                                                                                                all correspondence.
                                                                                                    correspondence.

                                                                 Sincerely,

                                                                1r~-~
                                                                Marc Gustafson
                                                                Regional Inspector General
                                                                Regional
                                                                 for Audit Services
                                                                 for


     Enclosure
Page 2 – Ms. Janet Olszewski


Direct Reply to HHS Action Official

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 FAMILY PLANNING SERVICES
 CLAIMED TWICE IN MICHIGAN
    FOR OCTOBER 1, 2005,
         THROUGH
     SEPTEMBER 30, 2007




                     Daniel R. Levinson
                      Inspector General

                         June 2009
                       A-05-08-00064
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits
with its own audit resources or by overseeing audit work done by others. Audits examine the
performance of HHS programs and/or its grantees and contractors in carrying out their respective
responsibilities and are intended to provide independent assessments of HHS programs and operations.
These assessments help reduce waste, abuse, and mismanagement and promote economy and efficiency
throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues. These
evaluations focus on preventing fraud, waste, or abuse and promoting economy, efficiency, and
effectiveness of departmental programs. To promote impact, OEI reports also present practical
recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the
Department of Justice and other Federal, State, and local law enforcement authorities. The investigative
efforts of OI often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support for
OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and abuse cases
involving HHS programs, including False Claims Act, program exclusion, and civil monetary penalty
cases. In connection with these cases, OCIG also negotiates and monitors corporate integrity
agreements. OCIG renders advisory opinions, issues compliance program guidance, publishes fraud
alerts, and provides other guidance to the health care industry concerning the anti-kickback statute and
other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. ' 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

States report the cost of services furnished to Medicaid beneficiaries on the “Quarterly Medicaid
Statement of Expenditures for the Medical Assistance Program,” Form CMS-64 (CMS-64).
Federal reimbursement is available only for expenditures that constitute payment for part or all
of the cost of services furnished as medical assistance under the approved State plan. Amounts
reported on the CMS-64 must be actual expenditures for which States are entitled to Federal
reimbursement.

Quarterly Federal payments to the States must be reduced or increased to make adjustment for
prior overpayments or underpayments that the Secretary determines have been made. The
Federal Government funds 90 percent of the costs for family planning services covered by
Medicaid.

In Michigan, the Department of Community Health (State agency) administers the Medicaid
program and is responsible for providing family planning services and reporting expenditures for
reimbursement on the CMS-64. The State agency claimed expenditures for nonwaiver family
planning services totaling $8,106,721 ($7,296,049 Federal share) in Federal fiscal year (FY)
2006 and $9,569,892 ($8,612,903 Federal share) in FY 2007.

OBJECTIVE

Our objective was to determine whether the State agency claimed costs more than once for
Federal reimbursement for family planning services during FYs 2006 and 2007.

SUMMARY OF FINDINGS

For FYs 2006 and 2007, the State agency claimed and received reimbursement totaling
$1,111,688 ($1,000,519 Federal share) for family planning services it claimed more than once.
This duplicate payment amount is unallowable for Federal financial participation. The State
agency did not claim the remaining $16,564,925 in family planning service costs more than
once. Our review of all these claims showed that some services were claimed twice on behalf of
the same beneficiaries on the same dates of service. The State agency reported the claims data
twice on the CMS-64 because the computer system it used to report family planning services
inappropriately compiled the same claims data from a report that identified family planning
services for all places of service and another report that identified services at only family



                                                i
planning clinics. Consequently, the State agency reported and claimed the services from family
planning clinics twice.

State agency officials said that they corrected the computerized reporting system, implemented
in 2001, to prevent the reporting of claims more than once as of July 1, 2008, which was
9 months after our audit period. State agency officials said that they had not adjusted the
CMS-64 to reflect the overpayments received.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $1,000,519 to the Federal Government for the unallowable duplicate Medicaid
       costs claimed from October 1, 2005, through September 30, 2007, and

   •   review family planning services claimed during the period January 1, 2001, through
       September 30, 2005, and after September 30, 2007, and refund to the Federal
       Government any Federal reimbursement for additional costs claimed more than once.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our recommendations.
The State agency’s comments are included in their entirety as the Appendix.




                                             ii
                                                  TABLE OF CONTENTS

                                                                                                                                    Page

INTRODUCTION.......................................................................................................................1

          BACKGROUND ..............................................................................................................1
              Medicaid Coverage of Family Planning Services.................................................1
              Michigan’s Medicaid Program .............................................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................2
               Objective ...............................................................................................................2
               Scope.....................................................................................................................2
               Methodology .........................................................................................................2

FINDINGS AND RECOMMENDATIONS .............................................................................2

          FEDERAL REQUIREMENTS.........................................................................................3

          IMPROPER CLAIMS FOR FEDERAL REIMBURSEMENT .......................................3

          INAPPROPRIATELY COMPILED CLAIMS DATA ....................................................3

          RECOMMENDATIONS..................................................................................................4

          STATE AGENCY COMMENTS.....................................................................................4

APPENDIX

          STATE AGENCY COMMENTS




                                                                 iii
                                             INTRODUCTION

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Medicaid Coverage of Family Planning Services

Pursuant to 42 CFR § 430.30(c), States report the cost of services furnished to Medicaid
beneficiaries on the “Quarterly Medicaid Statement of Expenditures for the Medical Assistance
Program,” Form CMS-64 (CMS-64). Federal reimbursement is available only for expenditures
that constitute payment for part or all of the cost of services furnished as medical assistance
under the approved State plan (sections 1903(a) and 1905(a) of the Act). Amounts reported on
the CMS-64 must be actual expenditures for which States are entitled to Federal reimbursement
(42 CFR § 430.30(c)(2)).

Section 1903(d)(2)(A) of the Act requires that quarterly Federal payments to the States are to be
reduced or increased to make adjustment for prior overpayments or underpayments that the
Secretary determines have been made. Section 2500.6 of CMS’s “State Medicaid Manual” states
that an overpayment is not considered a payment made in accordance with the approved State
plan and is therefore not allowable for Federal financial participation. An overpayment is “any
amount in excess of the amount that should have been paid and is refunded as required under
§1903 of the Act,” including duplicate payments. Pursuant to section 1903(a)(5) of the Act and
42 CFR § 433.10(c)(1), the Federal Government funds 90 percent of the costs for family
planning services covered by Medicaid.

Michigan’s Medicaid Program

In Michigan, the Department of Community Heath (State agency) administers the Medicaid
program and is responsible for providing family planning services and reporting expenditures for
reimbursement on the CMS-64. The State agency claimed expenditures totaling $8,106,721
($7,296,049 Federal share) in Federal fiscal year (FY) 2006 and $9,569,892 ($8,612,903 Federal
share) in FY 2007 for nonwaiver family planning services. 1



1The  State agency also claimed expenditures for family planning services provided under a CMS-approved waiver
that allowed Michigan to provide family planning services to recipients whose family income was at or below
185 percent of the Federal poverty level and so were not eligible for Medicaid. We did not review family planning
services claimed under the CMS-approved Medicaid waiver.




                                                        1
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency claimed costs more than once for
Federal reimbursement for family planning services during FYs 2006 and 2007.

Scope

We reviewed nonwaiver family planning services and claims from FYs 2006 and 2007, totaling
$17,676,613 ($15,908,952 Federal share), that the State agency reported and for which it
received Federal reimbursement. We did not review the overall internal control structure of the
State agency’s Medicaid program. Rather, we reviewed the State agency’s procedures related to
the reporting and claiming of expenditures for family planning services. We did not review the
medical necessity of the services or whether the services were actually provided.

We performed fieldwork at the State agency in Lansing, Michigan, from August through
November 2008.

Methodology

To accomplish our objective, we:

   •    reviewed Federal and State laws and regulations related to reporting expenditures for
        family planning services;

   •    held discussions with State agency officials related to State policies, procedures, and
        guidance for claiming Medicaid reimbursement for family planning services;

   •    obtained and reviewed claims data that supported the State agency’s nonwaiver family
        planning expenditures reported on the CMS-64 during FYs 2006 and 2007; and

   •    identified and verified with the State agency that claims were reported more than once on
        the CMS-64.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

For FYs 2006 and 2007, the State agency claimed and received reimbursement totaling
$1,111,688 ($1,000,519 Federal share) for family planning services it claimed more than once.
This duplicate payment amount is unallowable for Federal financial participation. The State


                                               2
agency did not claim the remaining $16,564,925 in family planning service costs more than
once. Our review of all these claims showed that some services were claimed twice on behalf of
the same beneficiaries on the same dates of service. The State agency reported the claims data
twice on the CMS-64 because the computer system it used to report family planning services
inappropriately compiled the same claims data from two reports: one that identified family
planning services for all places of service and one that identified services at only family planning
clinics. Consequently, the State agency reported and claimed the services from family planning
clinics twice.

FEDERAL REQUIREMENTS

Federal reimbursement is available only for expenditures that constitute payment for part or all
of the cost of services furnished as medical assistance under the approved State plan (sections
1903(a) and 1905(a) of the Act). Amounts reported on the CMS-64 must be actual expenditures
for which States are entitled to Federal reimbursement (42 CFR § 430.30(c)(2)).

Section 1903(d)(2)(A) of the Act requires that quarterly Federal payments to the States are to be
reduced or increased to make adjustment for prior overpayments or underpayments that the
Secretary determines have been made. Section 2500.6 of CMS’s “State Medicaid Manual” states
that an overpayment is not considered a payment made in accordance with the approved State
plan and is therefore not allowable for Federal financial participation. An overpayment is “any
amount in excess of the amount that should have been paid and is refunded as required under
§1903 of the Act,” including duplicate payments.

IMPROPER CLAIMS FOR FEDERAL REIMBURSEMENT

For FYs 2006 and 2007, the State agency included $1,111,688 in unallowable duplicate costs on
its CMS-64, as is shown in the table.

                   Table: Improper Claims for Fiscal Years 2006 and 2007
         Fiscal        Number of Claims          Duplicate
         Year            Reported Twice       Costs Claimed Federal Share
         2006                13,148               $490,629          $441,566
         2007                14,582                621,059           558,953
         Total               27,730             $1,111,688        $1,000,519

The State agency did not make duplicate payments to the family planning clinics. Rather, it
reported and claimed the same costs for the services twice on the CMS-64.

INAPPROPRIATELY COMPILED CLAIMS DATA

The State agency reported the claims data twice on the CMS-64 because its computer system
used to report family planning services inappropriately compiled the same claims data from a
report (BV-300) that identified family services for all places of service and another report
(FD-33) that identified services at family planning clinics. Consequently, the State agency
reported and claimed the services from family planning clinics twice.


                                               3
State agency officials said that they corrected the computerized reporting system, implemented
in 2001, to prevent the reporting of claims more than once as of July 1, 2008, which was
9 months after our audit period. State agency officials said that they had not adjusted the
CMS-64 to reflect the overpayments previously received.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $1,000,519 to the Federal Government for the unallowable duplicate Medicaid
       costs claimed from October 1, 2005, through September 30, 2007, and

   •   review family planning services claimed during the period January 1, 2001, through
       September 30, 2005, and after September 30, 2007, and refund to the Federal
       Government any Federal reimbursement for additional costs claimed more than once.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our recommendations.
The State agency’s comments are included in their entirety as the Appendix.




                                             4
APPENDIX
APPENDIX
 Page 1 of 2
    APPENDIX
     Page 2 of 2




2
